                            SOCIAL SECURITY
                                     May 28, 2004


The Honorable Earl Pomeroy
Ranking Minority Member
Subcommittee on Oversight
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Pomeroy:

In a March 10, 2004 letter, you asked that we review issues relating to the Social
Security Administration’s (SSA) arrangement for storing National Computer Center
back-up tapes and records at an off-site vault facility for recovery in the event of a
disaster. Your letter raised questions about several issues. On March 18, 2004, we
responded to you that we would conduct a review of this activity. The enclosed report
presents the results of our review.

My office is committed to combating fraud, waste, and abuse in SSA’s operations and
programs. Thank you for bringing your concerns to my attention. The report highlights
various facts pertaining to the issues raised in your letter. To ensure SSA is aware of
the information provided to your office, we are forwarding a copy of this report to the
Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Douglas Cunningham, Assistant Inspector General for Congressional and
Intra-Governmental Liaison Activities, at (202) 358-6319.

                                               Sincerely,




                                               S
                                               Patrick P. O’Carroll, Jr.
                                               Acting Inspector General

Enclosure

cc:
Jo Anne B. Barnhart



            SOCIAL SECURITY ADMINISTRATION        BALTIMORE MD 21235-0001
   CONGRESSIONAL RESPONSE
          REPORT
Security of the Social Security Administration’s
    National Computer Center Back-up and
          Recovery Tapes and Records

                 A-14-04-24101




                   May 2004
                                     Mission

We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                    Authority

The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                      Vision

By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                                                 Background
OBJECTIVE
Our objective was to address the issues raised by Congressman Earl Pomeroy in his
March 10, 2004 letter, regarding the Social Security Administration’s (SSA)
arrangement for storing National Computer Center (NCC) back-up tapes and records at
an off-site vault facility. Specifically, concerns were raised about: (1) the security in the
storage of SSA back-up tapes and records; (2) the current contractor’s compliance with
established SSA and industry security standards; and (3) the process recently used by
SSA to award the off-site storage of magnetic media contract to the incumbent
contractor.

BACKGROUND
SSA backs up software applications and data records from the NCC on magnetic tape
on a daily basis. These tapes are sent to an off-site storage facility (storage facility)
Monday through Friday. These tapes are used to restore NCC software applications
and data records in the event that a temporary outage or a disaster occurs. The tapes
are also used in the SSA annual disaster recovery test. Prior to 1997, back-up tapes
were sent twice weekly to the SSA storage facility located in Wilkes-Barre,
Pennsylvania. In 1997, SSA issued a Request-for-Proposal (RFP) for a storage facility
for NCC back-up tapes. Three vendors submitted responses. The contract period
included a base year with 4 optional years not to exceed 60 months. This contract was
awarded to Independent Services Corporation (ISC). In 2003, at the end of the initial
contract period, SSA issued a Request-for-Quote (RFQ) for the same services. SSA
received three responses to the RFQ. SSA awarded the new contract to ISC. One of
the unsuccessful vendors protested the contract award. SSA is currently revising the
RFQ for the re-competition of this contract.




Security of SSA’s NCC Back-up and Recovery Tapes and Records (A-14-04-24101)                1
                                                    Results of Review
Our review of the concerns raised by Congressman Pomeroy in his March 10, 2004
letter, determined that: the level of security afforded SSA back-up tapes stored at a
vendor’s off-site vault storage facility is sufficient, and the current contractor is
significantly compliant with established SSA and industry security standards.
Additionally, SSA followed applicable laws, regulations, and policies and procedures in
awarding this contract to the incumbent contractor.

CONCERN 1: Security in the Storage of SSA Back-Up Tapes and
Records at an Off-Site Vault Storage Facility
We visited the incumbent contractor’s facility on April 5 and April 20, 2004. We
observed that the incumbent contractor’s facility has significant security safeguards in
place that include: 1) a certified fire detection and suppression system; 2) a system that
monitors and controls the facility’s environment; 3) intrusion detection systems that
include motion, heat and vibration sensors; 4) installation of bullet-proof glass with
breakage sensors; 5) contact alarms installed on all doors; and 6) utility monitoring. All
of these systems are monitored 24 hours a day, 365 days a year. Furthermore, the
facility has a redundant power supply. The vault used by ISC to store NCC magnetic
media was certified in 1996 by independent engineers as meeting Department of
Defense (DOD) criteria for vault construction for the storage of classified information
(class type 'A' vault). As of April 2004, the engineer will not re-issue the certification for
the vault because the engineer was sued by a vendor involved in the contract award
protest. Although the certification has not been re-issued, the standards for a class type
‘A’ vault and the configuration of the contractor’s vault have not changed since the vault
was certified in 1996.

Our examination of storage facility reviews performed by other auditing entities did not
disclose any significant security deficiency with regard to the protection afforded SSA
back-up magnetic media stored at this location. Our current and prior physical security
reviews of this facility did not disclose any significant deficiency with respect to the
adequate protection of SSA data stored at this facility.

Based on our analysis, we believe the contractor is adequately protecting the NCC
back-up tapes and records stored at this facility.

CONCERN 2: The Current Contractor’s Compliance with Established
SSA and Industry Standards

The section on Physical Access Protection in the National Institute of Standards (NIST),
Special Publication 800-12, entitled Introduction to Computer Security, states that the
level of protection for the storage of material at an off-site storage facility should be at
the same level as that afforded the same material at the primary site of operations.
NIST Special Publication 800-34, entitled Contingency Planning Guide for Information


Security of SSA’s NCC Back-up and Recovery Tapes and Records (A-14-04-24101)                 2
Technology Systems, also gives general factors to be considered in connection with off-
site storage of electronic information.1 In addition, the Office of Management and
Budget (OMB) has published a minimum set of controls to be included in Federal
automated information security programs.2 The contract sets the detailed guidelines for
securing the storage facility, and appears to conform to the general guidelines published
by NIST and OMB, as applicable.

We believe the contractor has controls and procedures in place to adequately protect
the NCC back-up tapes and records. However, we have observed several areas where
the contractor may not be in strict compliance with specific detailed mandatory
requirements stated in the contract request (RFQ-03-0159). The following addresses
these issues.

Contractor Facility Located within 25 Miles of SSA

Section B.1 of the contract states “With reference to the geographic location of the SSA
complex in Woodlawn, Maryland, the storage facility shall be located at a distance of not
less than 25 miles and not at a greater distance that will prohibit a two (2) hour
drive/delivery time on average.” This requirement further states “…25 mile minimum
distance (Point-to-Point) is intended to provide adequate separation of geographic
areas and subsequent protection from fire, flood, earthquakes, and/or other acts of
nature.”3 We determined that the incumbent contractor’s facility did not meet the
25-mile Point-to-Point requirement. Further, we have not observed any industry best
practices or Federal requirement that mandates a definite distance between the storage
facility and the primary operations site. The Federal Emergency Management Agency
suggests “…storing data off-site where they would not likely be damaged by an event
affecting your facility.”4

SSA decided that the storage facility should be close enough so that tapes could be
sent daily, instead of twice weekly. Additionally, having the storage facility located
within 2 hours of the NCC limits magnetic tape environmental exposure and reduces
tape retrieval time in the event of a temporary outage or a disaster.

Our review of the statement of work for the re-competing of this contract showed that
the mileage requirement is now 20 miles Point-to-Point from the primary site of
operations. The current storage facility site in question is located beyond the 20 mile
Point-to-Point requirement. This distance appears reasonable in light of current Federal
standards and meets the new RFQ requirements.



1
  The National Institute of Standards and Technology (NIST) is charged with responsibility for developing
minimum information security requirements for information systems. Federal Information Security
Management Act of 2002, Title III, E-Government Act of 2002, P.L. 107-347, December 17, 2002.
2
  OMB Circular No. A-130, Security of Federal Automated Information Resources, Appendix III.
3
  Point-to-Point refers to door-to-door versus driving mileage which is usually different than Point-to-Point.
4
  Emergency Management Guide for Business and Industry, Section 2, Property Protection, Records
Preservation Page 37.


Security of SSA’s NCC Back-up and Recovery Tapes and Records (A-14-04-24101)                                 3
The Contractor Facility Is Located within a 1,000 Foot Radius of Stored Paints,
Chemicals and Explosives

Another RFQ requirement prevents the contractor’s facility from being within a
1,000 foot radius of any building used for the storage of paints, chemicals or explosives
of any kind. Our on-site observations made on April 5, 2004, showed that:

    1. the metal water tower located in back of the storage facility appears to be closer
       than 300 feet;

    2. the two fuel oil tanks, shown in earlier photographs next to the water tower, were
       removed;

    3. a propane gas tank with a capacity of about 350 gallons is located within a 1,000
       foot radius of the storage facility; and

    4. drums, of approximately 55 gallon capacity, that are/were used to store
       chemicals, are within a 1,000 foot radius of the storage facility.

We also noted that a trench (known as a catchment swale) was installed to divert water
from the water tower should the water tower fail. The local fire department chief
informed SSA that the 350-gallon propane gas tank does not pose a significant threat to
the storage facility. Our observation of the propane gas tank shows that the storage
facility is not adjacent to the propane tank. The building serviced by the propane tank is
between the storage facility and the tank. Also, the drums located across the road at
another business that are used to store chemicals were bundled together with the
notation of ‘empty’ written on the plastic wrap. In addition, there were no drums stored
in the secured fenced-in area of this facility during our visit, nor was there any indication
that propane gas was used by this business. Therefore, although these items
technically do not comply with the RFQ, they do not appear to jeopardize the storage
facility. We have not found any current industry standards that require set distances for
the storage of such materials.

Optional Crisis Copy Facility

A third mandatory contract requirement was that the contractor provide a second
magnetic media storage facility for the storage of ‘crisis copy’ media. Crisis copy media
is defined as an older/aged set of data that is determined critical to SSA systems
recovery in the event that a disaster occurs affecting the NCC, the storage facility, and
vehicles transporting SSA data during the same period.

Security requirements for the optional crisis copy facility are the same as those required
for the NCC, and the primary storage facility.5 Our review of the technical evaluations
and discussions with the Agency disclosed that none of the three vendors met this

5
 National Institute of Standards, Special Publication 800-12, Introduction to Computer Security: Section
on Physical Access Protection.


Security of SSA’s NCC Back-up and Recovery Tapes and Records (A-14-04-24101)                               4
requirement. As a result, the RFQ was amended by SSA to delete this requirement,
because none of the responding vendors would be able to comply. Therefore, the
deletion of this requirement from the original RFQ statement of work did not result in a
change of status for any vendor, nor did the change result in favoritism.

Our review of the statement of work for the amended RFQ showed that the crisis copy
facility is no longer a detailed mandatory requirement.

Industry Standards and Best Practices

We have not found any industry standards or best practices that conflict with the current
operation of the storage facility.

CONCERN 3: The Process Recently Used by SSA to Re-Award the
Off-site Storage of Magnetic Media Contract to the Incumbent
Contractor

SSA revised terms of the statement of work to more appropriately reflect its needs and
is currently in the process of re-competing the contract. The current contract will remain
in effect until the new contract is awarded. We have determined that SSA complied with
regulatory requirements when it amended the initial RFQ contractor detailed mandatory
requirements to reflect SSA’s ‘true needs.’

On January 30, 2004, the General Accounting Office (GAO) dismissed a protest that the
contract awardee’s facility did not meet various requirements of the RFQ. GAO stated
that the re-competing of this contract is the relief it would have recommended had GAO
decided the merits in the protester’s favor.

Our examination of the technical evaluations showed that two of the three responders
were found technically capable of meeting the statement of work general and detailed
mandatory requirements, as amended. SSA determined that the award of this contract
to the incumbent contractor was in the best interest of the Government since the
incumbent contractor’s proposal is technically qualified and the lowest overall cost. The
difference in cost among the three proposals was significant.




Security of SSA’s NCC Back-up and Recovery Tapes and Records (A-14-04-24101)               5
                                                                  Conclusion
Based on our review in response to the congressional inquiry, we believe that the
contractor is adequately protecting the back-up tapes and that the contract was
awarded to the contractor who is technically competent and offers the best value to
SSA.




Security of SSA’s NCC Back-up and Recovery Tapes and Records (A-14-04-24101)          6
                                          Appendices
  Appendix A – Acronyms
  Appendix B – Scope and Methodology




Security of SSA’s NCC Back-up and Recovery Tapes and Records (A-14-04-24101)
                                                                        Appendix A

Acronyms
    DOD                Department of Defense

    GAO                General Accounting Office

    ISC                Independent Services Corporation

    NCC                National Computer Center

    NIST               National Institute of Standards and Technology

    OMB                Office of Management and Budget

    RFP                Request-for-Proposal

    RFQ                Request-for-Quotation

    SSA                Social Security Administration




Security of SSA’s NCC Back-up Tapes and Records (A-14-04-24101)
                                                                       Appendix B

Scope and Methodology
To answer the Congressman’s questions related to the Social Security Administration’s
(SSA) use of an off-site storage facility (storage facility), we:

   •   Reviewed relevant contract documentation and the revised Request for
       Quotation;

   •   Reviewed SSA’s policies and procedures and industry best practices regarding
       the storage of back-up tapes and records;

   •   Conducted interviews with SSA personnel involved with the processes of the
       awarding and protest activities associated with this contract;

   •   Reviewed other audit reports involving an assessment of physical security of the
       storage facility and Disaster Recovery; and

   •   Conducted a physical security review of the contractor’s storage facility in
       April 2004.

Our work was conducted at the Headquarters complex in Baltimore and the storage
facility in New Windsor, Maryland during March and April 2004. We conducted our
review in accordance with the President’s Council on Integrity and Efficiency’s Quality
Standards for Inspections.




Security of SSA’s NCC Back-up Tapes and Records (A-14-04-24101)
                                  DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services, Education and Related
Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human Services, Education and
Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                   Overview of the Office of the Inspector General


                                        Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure that
program objectives are achieved effectively and efficiently. Financial audits, required by the
Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements fairly present
the Agency’s financial position, results of operations and cash flow. Performance audits review
the economy, efficiency and effectiveness of SSA’s programs. OA also conducts short-term
management and program evaluations focused on issues of concern to SSA, Congress and the
general public. Evaluations often focus on identifying and recommending ways to prevent and
minimize program fraud and inefficiency, rather than detecting problems after they occur.

                               Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General (OIG)
by providing information resource management; systems security; and the coordination of
budget, procurement, telecommunications, facilities and equipment, and human resources. In
addition, this office is the focal point for the OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act. OEO is also responsible for performing internal reviews to ensure
that OIG offices nationwide hold themselves to the same rigorous standards that we expect from
SSA, as well as conducting investigations of OIG employees, when necessary. Finally, OEO
administers OIG’s public affairs, media, and interagency activities, coordinates responses to
Congressional requests for information, and also communicates OIG’s planned and current
activities and their results to the Commissioner and Congress.

                                    Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to fraud,
waste, abuse, and mismanagement of SSA programs and operations. This includes wrongdoing
by applicants, beneficiaries, contractors, physicians, interpreters, representative payees, third
parties, and by SSA employees in the performance of their duties. OI also conducts joint
investigations with other Federal, State, and local law enforcement agencies.

                              Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector General
on various matters, including: 1) statutes, regulations, legislation, and policy directives
governing the administration of SSA’s programs; 2) investigative procedures and techniques;
and 3) legal implications and conclusions to be drawn from audit and investigative material
produced by the OIG. The Counsel’s office also administers the civil monetary penalty program.
